            Millennium Challenge Corporation
            Reducing Poverty Through Growth



     OFFICE OF INSPECTOR GENERAL

Audit of the Millennium Challenge Corporation’s
Financial Statements, Internal Controls, and
Compliance for the Nine Month Period Ending
September 30, 2004

Report No. M-000-05-001-C

January 27, 2005




                     Washington, D.C.
                    Millennium Challenge Corporation
                    Reducing Poverty Through Growth




January 27, 2005

MEMORANDUM

TO:           Paul V. Applegarth, Chief Executive Officer, Millennium Challenge
              Corporation

FROM:         Henry L. Barrett, AIG/MCC /s/

SUBJECT:      Audit of the Millennium Challenge Corporation’s Financial Statements,
              Internal Controls, and Compliance for the Nine Month Period Ending
              September 30, 2004 (Report No. M-000-05-001-C)

Enclosed is the final report on the subject audit. The Office of Inspector General (OIG)
contracted with the independent certified public accounting firm of Williams, Adley and
Company, LLP (WA & Co.) to audit the financial statements of the Millennium Challenge
Corporation (MCC) for the nine month period ended September 30, 2004. The contract
required that the audit be performed in accordance with generally accepted auditing
standards; generally accepted government auditing standards; and Office of Management
and Budget (OMB) Bulletin 01-02, Audit Requirements for Federal Financial Statements.

In its audit of the MCC’s financial statements for the nine month period ended September
30, 2004, the WA & Co. auditors found;

   •   that the financial statements were fairly presented in conformity with U.S. generally
       accepted accounting principles,
   •   a reportable condition in MCC’s internal controls, and
   •   an instance of noncompliance related to the review of its financial and accounting
       system.

The Millennium Challenge Corporation (Corporation) does not have its own financial
system. The Corporation contracted with the Department of Interior, National Business
Center (NBC) to provide accounting and IT services including usage of its Oracle Federal
Financials System application. However, the NBC has not conducted an internal control
review, such as a Statement of Auditing Standards (SAS) 70 review, of the Oracle
Federal Financials System nor has MCC requested NBC to do such a review.
Furthermore, WA & Co. LLP considered that as a result of the above situation the
Corporation’s financial management system was not in substantial compliance with the
Federal financial management system requirements required under the Federal Financial
Management Improvement Act (FFMIA) of 1996 and OMB Circular A-127, Federal
Financial System Requirements.

In carrying out its oversight responsibilities, the OIG reviewed WA & Co.’s report and
related audit documentation. This review, as differentiated from an audit in accordance
with U.S. generally accepted government auditing standards, was not intended to enable
the OIG to express, and we do not express, opinions on MCC’s financial statements or
internal control; on whether MCC’s financial management systems substantially
complied with FFMIA; or on MCC’s compliance with other laws and regulations. WA &
Co. is responsible for the attached auditors’ report, dated January 6, 2005, and the
conclusions expressed in the report. However, our review disclosed no instances where
WA & Co. did not comply, in all material respects, with applicable standards.

Because of the internal control weakness and the compliance finding reported, we are
making the following recommendation to MCC’s management:

       Recommendation No. 1: We recommend that the Millennium
       Challenge Corporation (MCC) require the National Business Center
       to conduct an internal control review, such as a SAS 70 review, to
       assess the control environment of the Oracle Federal Financials
       System used to process MCC’s financial transactions.

In finalizing the report, we considered your comments on our draft report and included
those comments, in their entirety in Appendix I of this report. Based on MCC’s
comments, we consider that a management decision has been reached on Recommendation
No. 1. MCC should inform the OIG when final action has been taken.

The OIG appreciates the cooperation and courtesies extended to our staff and to the staff
of WA & Co. during the audit.
Table of
Contents   Management’s Discussion and Analysis ........................................... 5

           Independent Auditors’ Report............................................................15

           Statement of Financial Position .........................................................17

           Statement of Operations and
               Changes in Net Position...............................................................18

           Statement of Functional Expenses .....................................................19

           Statement of Cash Flows ...................................................................20

           Statement of Budgetary Resources ....................................................21

           Notes to the Financial Statements......................................................23

           Independent Auditors’ Report On
              Internal Control Over Financial Reporting ..................................29

           Independent Auditors’ Report On
              Compliance With Laws and Regulations.....................................33

           Management Comments
             and our Evaluation .......................................................................35

           Appendix I – Management Comments ..............................................37




                                                                                                   3
This page intentionally left blank
                                                                            Unaudited




                 MANAGEMENT’S DISCUSSION AND ANALYSIS


        “We must tie greater aid to political and legal and economic reforms. And by
insisting on reform, we do the work of compassion. The United States will lead by
example.”
           President George W. Bush, Monterrey, Mexico March 22, 2002
With his announcement in Monterrey, President Bush launched a major new commitment
by the United States to bring hope and opportunity to the world’s poorest people. In
proposing the Millennium Challenge Account (MCA) and the Millennium Challenge
Corporation (MCC), the organization that would oversee and manage the account,
President Bush made clear that this program would be unlike any other in America’s long
history of foreign assistance. Along with significant new resources to fight world poverty,
the President promised we would insist on the reforms necessary to make this a fight we
could win.

With strong bipartisan support, Congress established the Millennium Challenge
Corporation on the 23rd of January 2004, authorized the MCC to administer the MCA and
provided $1 billion in initial funding for FY 2004. President Bush has pledged to
increase funding for the MCA to $5 billion a year, roughly a 50 percent increase over
then current U.S. core development assistance.

The MCA draws on lessons learned about development over the past 50 years:

   1. Aid is most effective when it reinforces sound political, economic and social
      policies - which are key to encouraging the inflows of private capital and
      increased trade - the real engines of economic growth;
   2. Development plans supported by a broad range of stakeholders, and for which
      countries have primary responsibility, engender country ownership and are more
      likely to succeed;
   3. Integrating monitoring and evaluation into the design of activities boosts
      effectiveness, accountability, and the transparency with which taxpayer resources
      are used.

Mission, Key Principles and Organizational Structure

Mission: MCC’s mission is to “Reduce Poverty through Economic Growth.” The MCC
will focus specifically on promoting sustainable economic growth that reduces poverty
through investments in areas such as agriculture, education, private sector development,
and capacity building.




                                                                                         5
                                                                                      Unaudited



Key Principles: The MCA is governed by the following key principles:

    •   Reward Good Policy: Using objective indicators, countries will be selected to
        receive assistance based on their performance in governing justly, investing in
        their citizens, and encouraging economic freedom.

    •   Operate in Partnership: Working closely with the MCC, countries that receive
        MCA assistance will be responsible for identifying the greatest barriers to their
        own development, ensuring civil society participation, and developing an MCA
        program. MCA participation will require a high-level commitment from the host
        government. Each MCA country will enter into a public Compact with the MCC
        that includes a multi-year plan for achieving shared development objectives and
        identifies the responsibilities of each partner in achieving those objectives.

    •   Focus on Results: MCA assistance will go to those countries that have
        developed well-designed programs with clear objectives, benchmarks to measure
        progress, procedures to ensure fiscal accountability for the use of MCA
        assistance, and a plan for effective monitoring and objective evaluation of results.
        Programs will be designed to enable progress to be sustained after the funding
        under the MCA Compact has ended.

Organization: The MCC is managed by a Chief Executive Officer appointed by the
President and confirmed by the Senate and overseen by a Board of Directors composed of
the Secretary of State, the Secretary of Treasury, the U.S. Trade Representative, the
Administrator of USAID, the CEO of the MCC and four public members,1 appointed by
the President with the advice and consent of the Senate. The Secretary of State is the
Chairman of the Board. The MCC, which administers the MCA, is designed to support
innovative strategies and to ensure accountability for measurable results. Accordingly,
the Corporation was designed to make maximum use of flexible authorities to optimize
efficiency in contracting, program implementation, and personnel.

MCC’s internal organization is comprised of the Chief Executive Officer and eight vice-
Presidencies:

    (1) Office of the Chief Executive Officer: responsible for managing the operations in
        a manner that reflects policies of the Board of Directors and also achieves MCC’s
        objectives in accordance with applicable laws and regulations and Congressional
        directives.



1
 Two public members, Kenneth Hackett, president of Catholic Relief Services, and Governor Christine
Todd Whitman, who served as Administrator of the Environment Protection Agency, were named and
confirmed in July 2004.



6
                                                                            Unaudited


   (2) General Counsel: Responsible for and directs all attorneys, agents and employees
       in the performance of all legal duties and services for and on behalf of MCC.
       This office is responsible for all legislative matters and maintains MCC’s records.
   (3) Administration and Finance: Responsible for all matters pertaining to the
       Corporation’s financial, administrative, information technology, procurement, and
       human resource management policies and procedures.
   (4) Country Relations: Responsible for managing assistance and the development of
       compacts. Manages the communications with eligible countries leading to the
       country’s submission of a proposal. It provides advice to the countries about their
       proposals, plays a coordination role after the proposals are submitted and will
       coordinate the negotiation of compacts with individual countries.
   (5) Markets and Sectoral Assessments: Responsible for evaluating country proposals
       to ensure that the projects that the countries propose are feasible and will lead to
       poverty reduction through economic growth. This office is also responsible for
       reviewing the financial and procurement systems in each country.
   (6) Domestic Relations: Responsible for all domestic and international
       communications concerning MCC. This office collects and disseminates
       information to all key stakeholders.
   (7) Monitoring and Evaluation: Responsible for developing and administering the
       corporation’s monitoring and evaluation program.
   (8) Development Policy: Responsible for defining MCC’s policies and procedures,
       gathering data on the countries, and developing briefing materials.
   (9) International Relations: Responsible for developing and maintaining mutually
       beneficial relationships with international organizations.

PERFORMANCE GOALS, OBJECTIVES AND RESULTS FOR FY 2004

During the start up phase or the first nine months of its operations, or the period ending
September 30, 2004, MCC’s key goals were to:

Objective 1: Establish an enabling administrative and operational environment.

   Performance Measures:

          i.   Office space rented, contracts executed for fundamental operational
               services such as accounting, information technology, contracting, and,
               travel services.
         ii.   Organizational structure and staffing plan developed, and 60 positions
               filled.

   Results: The MCC has successfully met all the performance measures identified
   above. MCC’s temporary headquarters was established in Rosslyn, Virginia, with
   space rented from the Department of State. It is anticipated that MCC will relocate to
   Washington, DC in the summer of 2005. During its start up phase, MCC outsourced




                                                                                         7
                                                                               Unaudited

       its financial management, human resources, contract and travel management
       functions to the Department of Interior’s National Business Center.

       On September 30, 2004, MCC had a total staff, including contractors of 61 people. 2
       MCC ambitious staffing plan calls for a total staff of 150 to 200 employees by the end
       of FY 2005, and accordingly, MCC has hired a recruitment firm to assist it in meeting
       this important goal.

Objective 2: Meet the legal requirements specified in the Millennium Challenge Act and
develop a process for providing program support.

       Performance Measures:

               i.    Eligible candidate countries for FY 2004 and FY 2005 funding identified,
                     Congress notified, and, list published in the Federal Register.
              ii.    Criteria and methodology for selecting eligible countries in FY 2004 and
                     FY 2005 established, results published, and one or more public hearings
                     held.
             iii.    Eligible countries for FY 2004 funding identified, report provided
                     Congress and published in the Federal Register.

       Results: MCC developed the candidate country list, which included 63 and 70
       countries respectively, for FY 2004 and FY 2005, notified Congress and published
       the report in the Federal Register, all within the specified time frames3 in the Act.
       Similarly, MCC developed the selection criteria and methodology and held four
       public hearings to solicit comment and facilitate understanding. On May 6, 2004, the
       Board selected 16 countries as eligible to apply for MCA financing in FY 2004; a
       report was submitted to Congress and published in the Federal Register. MCC also
       conducted public hearings to explain the results. Within weeks of this selection,
       MCC delegations visited the selected countries to explain MCA and invited these
       countries to submit proposals. MCC received 10 proposals and concept papers
       before the end of the fiscal year. MCC has clearly met this objective.

Objective 3: Coordinate with the United States Agency for International Development
(USAID).

       Performance Measures:

              i.     Threshold program developed.
              ii.    Memorandum of understanding signed with USAID.

       Results: The MCC, in close coordination with USAID, developed a Threshold
       program and executed a memorandum of Understanding in September 2004, thereby
       meeting this objective.

2
    Includes 51 direct hire staff and 10 contractors.
3
    One report was submitted two days late.


8
                                                                              Unaudited


MCC’s FINANCIAL STATEMENTS

The financial statements, presented herein, have been prepared to report the financial
position and results of operation of MCC, pursuant to the requirements of 31 U.S.C. 3515
(b). While these statements have been prepared from the books and records of MCC in
accordance with generally accepted accounting principles (GAAP) for Federal entities
and the formats prescribed by the Federal Accounting Standards Advisory Board
(FASAB), the statements are in addition to the financial reports used to monitor and
control budgetary resources which are prepared from the same books and records. As
such, these statements should be read with the realization that they are for a component of
the U.S. Government, a sovereign entity. MCC’s financial statements for the nine
months ended September 30, 2004 reflect a classic start up organization, where the
program or business purpose has not been implemented from a financial perspective.
MCC has three costs centers: Program, Administration and Audit.

The financial statements however provide a glimpse of MCC’s evolving character, a lean
corporation that manages a substantial development investment fund, with limited human
resources. MCC’s objective is to maximize the use of its human resource capital to
further its business objectives and accordingly, the bulk of its back office operations,
such as financial, information technology and human resource management have been
outsourced. MCC’s key administrative costs are staff salaries and benefits, travel, rent
and operational services. It is anticipated that salaries and benefits will account for about
55 percent and travel, particularly those related to program due diligence and monitoring,
will account for about 20 percent of all administrative costs. Audit services, provided by
USAID’s Inspector General’s office, amounted to 7 percent of administrative costs in FY
2004 and is expected to consume a lower percentage of administrative costs in the future
as MCC operations expand and the full contingent of staff is hired. No direct program
funds were obligated or disbursed in FY 2004.


MCC’S SYSTEMS, CONTROLS AND LEGAL COMPLIANCE

MCC’s strategy, given that: (i) it did not have a full complement of staff; (ii) had
outsourced all its key administrative operational functions; and (iii) was developing its
compact process, was to use outside resources to assess and validate its key internal
control structures, instead of conducting an internal review of its internal control
structures. The USAID Inspector General has issued a report based on a review it
performed addressing the following:

   •   What progress has the Millennium Challenge Corporation made in achieving its
       planned organizational structure?
   •   What is the status of the Millennium Challenge Corporation’s compact
       development process?




                                                                                           9
                                                                               Unaudited


     •   What progress has the Millennium Challenge Corporation made in complying
         with the Millennium Challenge Act of 2003 and other applicable federal laws and
         regulations?

and, conducted reviews of:

     •   MCC’s compliance with the Federal Information Security Management Act, and

     •   The external auditors, as a part and parcel of the present financial statement audit,
         have reviewed the Department of Interior’s National Business Center and MCC
         internal control structures related solely to the MCC’s financial statements.

These reviews and audits provide MCC with reasonable assurance as to the validity of the
internal control systems and its ability to rely on them. MCC will be implementing the
recommendations emanating from the above: (i) MCC recently developed its own
information technology network and accordingly, will develop a security program as
called for by the report; and, (ii) MCC has obtained assurance from the Department of
Interior’s National Business Center that they will be conducting a FISMA audit of the
Oracle system in FY 2005.


MANAGEMENT CHALLENGES FACING MCC

There are many management challenges that face MCC. They include:

 (i)      Staffing: MCC’s ability to effectively perform its business function, which
          includes due diligence, compact negotiation, management and program
          monitoring, is dependent on the ability to rapidly hire staff. MCC has
          outsourced recruitment support and anticipates that this requirement will be met.

 (ii)     Integrated financial and management information system:             As a lean
          organization, MCC needs to make sure that its management information
          systems are responsive to the needs of its managers and that this information is
          readily accessible by its staff and partners. The financial management, human
          resources, and procurement systems used by MCC are not integrated, resulting
          in duplicative data entry, duplication of effort and loss of management
          information. MCC plans to standardize its operations on one integrated
          platform that would also provide a framework for managing its program
          resources. MCC has already begun discussions with NBC to determine if they
          are willing and able to support these key functions on the platform chosen by
          MCC. If not, MCC will have to look for other means of meeting this
          requirement.

 (iii)    Overseas risk: MCC’s business takes place in countries where risks are
          perceived to be higher.  MCC’s assistance modality and method of


10
                                                              Unaudited

implementation, where the foreign governments will generally manage the
resources, is new and has not been tested, increasing potential risk. The
developmental benefits of this approach, however, by far outweigh the risks,
and MCC believes that this risk can be greatly reduced or mitigated with
adequate due diligence and management controls.




                                                                         11
This page intentionally left blank
MILLENNIUM CHALLENGE CORPORATION
                  Financial Statements

                  September 30, 2004

      (With Independent Auditors' Report Thereon)




   WILLIAMS, ADLEY & COMPANY, LLP
           Management Consultants
                      and
          Certified Public Accountants
WILLIAMS, ADLEY & COMPANY, LLP
       Management Consultants
      Certified Public Accountants




                  INDEPENDENT AUDITORS’ REPORT

Inspector General
United States Agency for International Development

Board of Directors
Millennium Challenge Corporation

We have audited the accompanying Statement of Financial Position of the Millennium
Challenge Corporation (Corporation) as of September 30, 2004, and the related
Statements of Operations and Changes in Net Position, Cash Flows, and Budgetary
Resources for the nine months ended September 30, 2004. These financial statements are
the responsibility of Corporation management. Our responsibility is to express an
opinion on these financial statements based on our audit.

We conducted our audit in accordance with auditing standards generally accepted in the
United States of America and standards applicable to financial statement audits contained
in Government Auditing Standards, issued by the Comptroller General of the United
States, and the Office of Management and Budget (OMB) Bulletin No. 01-02, Audit
Requirements for Federal Financial Statements. Those standards require that we plan
and perform the audit to obtain reasonable assurance that the financial statements are free
of material misstatement. An audit includes examining, on a test basis, evidence
supporting the amounts and disclosures in the financial statements. An audit also
includes assessing the accounting principles used and significant estimates made by
management, as well as evaluating the overall financial statement presentation. We
believe that our audit provides a reasonable basis for our opinion.

In our opinion, the financial statements referred to above present fairly, in all material
respects, the financial position of the Corporation at September 30, 2004, and cash flow
for the nine months ended September 30, 2004, in conformity with accounting principles
generally accepted in the United States of America.

Our audit was made for the purpose of forming an opinion on the basic financial
statements of the Corporation taken as a whole. The information contained in the
Management’s Discussion and Analysis is not a required part of the financial statements


1250 H Street, N.W., Suite 1150   •   Washington, DC 20005   •   (202) 371-1397 •   Fax: (202) 371-9161
but is supplementary information required by the Federal Accounting Standards Advisory
Board guidance. We have applied certain limited procedures, which consisted principally
of inquiries of management regarding the methods of measurement and presentation of
the information. However, we did not audit the information and do not express an
opinion thereon.

The accompanying Statement of Functional Expenses for the nine months ended
September 30, 2004 is presented for purposes of additional analysis and is not a required
part of the basic financial statements. This statement is the responsibility of the
management of Corporation. The information in this statement has been subjected to the
auditing procedures applied in our audit of the basic financial statements and, in our
opinion, is fairly stated in all material respects when considered in relation to the basic
financial statements taken as a whole.

In accordance with Government Auditing Standards, we have also issued our reports
dated January 6, 2005, on our consideration of the Corporation’s internal control over
financial reporting and on our tests of its compliance with provisions of laws and
regulations. Our reports on internal control and compliance are an integral part of an
audit conducted in accordance with Government Auditing Standards and should be read
in conjunction with this report in considering the results of our audit.

This audit was performed pursuant to the Government Corporation Control Act, and is
intended solely for the information and use of the United States Congress, the President,
the Director of the Office of Management and Budget, the Comptroller General of the
United States, the Corporation and its Inspector General. This restriction is not intended
to limit the distribution of this report, which is a matter of public record.




January 6, 2005
Washington, DC
Millennium Challenge Corporation
Statement of Financial Position
As of September 30, 2004



                                                                        Total           Program       Administrative       Audit
 Assets
   Fund Balance with Treasury (Note 2)                         $   989,816,579      $   986,171,577   $   3,288,818    $   356,184
   Prepayments (Note 3)                                                168,599                    -         168,599              -
 Total Assets                                                  $   989,985,178      $   986,171,577   $   3,457,417    $   356,184



 Liabilities
   Accounts Payable                                            $           23,884   $             -   $     23,884 $              -
   Other Liabilities (Note 4)                                             854,625                 -         498,441         356,184
   Accrued Unfunded Annual Leave                                          169,901                 -         169,901               -
     Total Liabilities                                         $        1,048,410   $             -   $    692,226 $       356,184


 Net Position
   Unexpended Appropriations
      Obligated                                                $     2,765,191      $             -   $   2,765,191    $           -
      Unobligated                                                  986,171,577          986,171,577               -                -
   Cumulative Results of Operations                                          -                    -               -                -
     Total Net Position (Note 5)                               $   988,936,768      $   986,171,577   $   2,765,191    $           -

 Total Liabilities and Net Position                            $   989,985,178      $   986,171,577   $   3,457,417    $   356,184




     The footnotes are an integral part of these financial statements




                                                                                                                                   17
Millennium Challenge Corporation
Statement of Operations and Changes in Net Position
For the nine month ended September 30, 2004




                                                                       Total            Program       Administrative       Audit
 Revenues
     Appropriations Used                                         $      5,163,232   $             -   $   4,807,048    $ 356,184

 Expenses                                                        $      5,163,232   $             -   $   4,807,048    $ 356,184

 Excess of Revenues over Expenses                                $              -   $             -   $           -    $           -

 Net Position
     Excess of Revenues over Expenses                            $              -   $             -   $           -    $           -
     Increase in Unexpended Appropriations
           Obligated                                                    2,765,191                 -       2,765,191                -

             Appropriated                                             992,071,577   992,071,577                   -                -
             Permanent Recission                                       (5,900,000)   (5,900,000)                  -                -
           Unobligated                                                986,171,577   986,171,577                   -                -
             Total Increase in Unexpended Appropriations              988,936,768   986,171,577           2,765,191                -
     Beginning Net Position - January 23, 2004                   $              - $           - $                 -    $           -

     Ending Net Position - September 30, 2004                    $    988,936,768   $ 986,171,577     $   2,765,191    $           -




          The footnotes are an integral part of these financial statements




18
Millennium Challenge Corporation
Statement of Functional Expenses
For the nine month period ended September 30, 2004




                                              Total          Program       Administrative       Audit

Salary and Benefits                       $ 2,185,333    $             -   $   2,013,058    $   172,275
Travel                                        460,463                            443,508         16,955
Rent/Lease                                    322,833                            322,833
Utilities                                     170,241                            170,241
Information Technology Services               502,286                            502,286
Accounting Services                           316,496                            316,496
Other Services                                893,483                            726,529        166,954
Supplies and Equipment                        102,368                            102,368
Miscellaneous                                 209,729                            209,729

                                          $ 5,163,232    $             -   $   4,807,048    $   356,184




 The footnotes are an integral part of these financial statements




                                                                                                          19
Millennium Challenge Corporation
Statement of Cash Flows
For the nine month period ended September 30, 2004



                                                                              Total            Program       Administrative       Audit
 Cash Flows from Operating Activities
     Excess of Revenues over Expenses                                    $             -   $             -   $            -   $           -
     Adjustments Affecting Cash Flow:
      Appropriated Capital Used                                          $    (5,163,232) $              -   $   (4,807,048) $ (356,184)
      Increase in Prepayments                                                   (168,599)                -         (168,599)           -
      Increase in Accounts Payable                                                 23,884                -            23,884           -
      Increase in Other Liabilities                                               854,625                -           498,441     356,184
      Increase in Unfunded Annual Leave Liabilities                               169,901                -           169,901           -

 Total Adjustments                                                       $    (4,283,421) $              -   $   (4,283,421) $            -

      Net Cash Generated by Operating Activities                         $    (4,283,421) $              -   $   (4,283,421) $            -

 Cash Flows from Financing Activities
      Appropriations Received Net of Recissions                          $   994,100,000   $ 986,171,577     $   7,572,239    $   356,184

      Fund Balance with Treasury, Beginning                              $             -   $             -   $            -   $           -

      Fund Balance with Treasury, Ending                                 $   989,816,579   $ 986,171,577     $   3,288,818    $   356,184




      The footnotes are an integral part of these financial statements




20
Millennium Challenge Corporation
Statement of Budgetary Resources
For the nine month ended September 30, 2004



                                                                              Total         Program           Administrative   Audit
Budgetary Resources:
          Budget Authority:
             Appropriations                                             $   1,000,000,000   $ 992,071,577     $    7,572,239   $ 356,184
             Net Transfer, Current Year Authority                                       -
          Unobligated Balance - Beginning of Period                                     -
          Unobligated Balance - Transferred
          Spending Authority from Offsetting Collections                                -
          Advances Received                                                             -
          Adjustments:
             Recoveries of Prior Years Obligations                                     -
             Permanently Not Available (Note 6)                               (5,900,000)   (5,900,000)
                                  Total Budgetary Resources             $    994,100,000 $ 986,171,577 $           7,572,239   $ 356,184
Status of Budgetary Resources:
          Obligations Incurred                                          $      7,928,423    $             -   $    7,572,239   $ 356,184
          Unobligated Balance Available:
                    Apportioned                                              986,171,577        986,171,577
          Unobligated Balance Not Available:                                           -
                                  Total Status of Budgetary Resources   $    994,100,000    $ 986,171,577     $    7,572,239   $ 356,184

Relationship of Obligations to Outlays:
          Obligated Balance, Net - Beginning of Period                  $              -    $             -   $            -   $         -
          Obligations Incurred                                                 7,928,423                  -        7,572,239       356,184
          Recoveries of Prior Years Obligations                                        -
          Adjustments
          Obligated Balance, Net - End of Period
                    Accounts Payable                                           (1,048,410)                          (692,226)  (356,184)
                    Undelivered Orders                                         (2,596,592)                        (2,596,592)
                                  Total Outlays                         $       4,283,421 $               -   $    4,283,421 $        -
          Outlays:
                    Disbursements                                              4,283,421                  -        4,283,421             -
                    Collections / Refunds                                              -
                                  Net Outlays                           $      4,283,421    $             -   $    4,283,421   $         -




    The footnotes are an integral part of these financial statements




                                                                                                                                             21
This page intentionally left blank
                       Millennium Challenge Corporation
                                   Footnotes
                          (As of September 30, 2004)

Note 1 – Summary of Significant Accounting Policies

   A. Basis of Presentation

   These financial statements have been prepared to report the financial position, results
   of operations, cash flows, and budgetary resources for the Millennium Challenge
   Corporation (the Corporation), as required by Section 613 of the Millennium
   Challenge Act of 2003. The Corporation was formed on January 23, 2004. These
   financial statements have been prepared from the books and records of the
   Corporation in accordance with generally accepted accounting principles (according
   to the Federal Accounting Standards Advisory Board, or FASAB) for the period
   January 23, through September 30, 2004. The Corporation is not subject to income
   tax.

   The principal financial statements of the Corporation are the:

      •   Statement of Financial Position;

      •   Statement of Operations and Changes in Net Position;

      •   Statement of Cash Flows; and

      •   Statement of Budgetary Resources.

   The notes to the financial statements are considered an integral part of the financial
   statements.

   B. Reporting Entity

   The Corporation was created by the Millennium Challenge Act of 2003 (Public Law
   108-199). The Corporation provides United States assistance for global development.
   This assistance is provided in such a manner as to provide economic growth and the
   elimination of extreme poverty and strengthens good governance, economic freedom,
   and investments in people.

   C. Budgets and Budgetary Accounting

   The activities of the Corporation are funded through an appropriation with indefinite
   expiration (no-year funds). For FY 2004, $1 billion was initially appropriated. This
   appropriation funds both the cost of administrative operations, and any grants,
   compacts or contracts with eligible entities.



                                                                                       23
     D. Basis of Accounting

     Transactions are recorded in the accounting system on an accrual basis and a
     budgetary basis. Under the accrual method of accounting, revenues are recognized
     when earned and expenses are recognized when a liability is incurred, without regard
     to receipt or payment of cash.

     The recognition of budgetary accounting transactions is essential for compliance with
     legal constraints and controls over the use of Federal funds. Budgetary accounting
     principles are designed to recognize the obligation of funds according to legal
     requirements, which in many cases is prior to the occurrence of an accrual-based
     transaction. Thus, the financial statements differ from other financial reports
     submitted pursuant to Office of Management and Budget directives for the purpose of
     monitoring and controlling the use of the Corporation’s budgetary resources.

     E. Fund Balance with Treasury

     The Corporation does not maintain cash in commercial bank accounts. The U.S.
     Treasury processes all cash receipts and disbursements for the Corporation. The
     Fund Balance with Treasury represents no-year funds, which are maintained in
     appropriated funds that are available to pay current and future commitments.

     F. Advances to Others

     The Corporation advances funds, primarily in response to grantee drawdown requests,
     to facilitate completion of any approved grant or contract.

     G. Property and Equipment

     The Corporation capitalizes property and equipment at historical cost for acquisitions
     of $25 thousand or more, with an estimated useful life of two or more years. These
     assets can include telephone equipment, computer systems equipment, copiers,
     computer software, furniture, and assets under capital leases. These assets are
     depreciated (or amortized) over estimated useful lives ranging from two to ten years,
     using the half-year convention. Normal maintenance and repair costs on capitalized
     property and equipment are expensed when incurred.

     H. Grants Payable

     Grants are made to eligible countries with an approved Compact. Grants become
     budgetary obligations, but not liabilities, when they are awarded. At the end of each
     fiscal year, the Corporation reports the total amount of unreimbursed authorized
     grantee expenses, earned under the terms of the Compact, as grants payable.




24
I. Accounts Payable

The Corporation records as liabilities all amounts that are likely to be paid as a direct
result of transactions or events that have already occurred. Accounts payable
represents amounts due to both Federal and non-Federal entities for goods and
services received by the Corporation, but not paid for at the end of the fiscal year.

J. Actuarial FECA Liability

The Federal Employees’ Compensation Act (FECA) provides income and medical
cost protection to covered Federal civilian employees injured on the job, employees
who have incurred a work-related occupational disease, and beneficiaries of
employees whose death is attributable to a job-related injury or occupational disease.

Claims incurred for benefits for Corporation employees under FECA are administered
by the Department of Labor (DOL) and later billed to the Corporation. The
Corporation’s actuarial liability for worker’s compensation includes any costs
incurred but unbilled as of year-end, as calculated by DOL, and is not funded by
current appropriations.

Because 2004 is the first year of limited operation for the MCC, there are no FECA
liabilities incurred or reflected on the statements.

K. Other Liabilities

Other liabilities included amounts owed but not paid at the end of the fiscal year for
payroll and benefits.

L. Accrued Annual Leave

Annual leave is accrued as a liability based on amounts earned but not used as of the
fiscal year-end. Each year, the balance in the accrued annual leave account is
adjusted to reflect current year pay rates and leave balances. Annual leave is funded
from current appropriations when used. As unused annual leave is used in the future,
financing will be obtained from appropriations current at that time. Sick leave and
other types of non-vested leave are expensed when used.

M. Net Position

Net position is composed of unexpended appropriations and cumulative results of
operations. Unexpended appropriations are funds appropriated and warranted to the
Corporation that are still available for expenditure at the end of the fiscal year.
Cumulative results of operations represent the net differences between revenues and
expenses from the inception of the Corporation.




                                                                                      25
     N. Revenues

     The Corporation obtains funding for its program and operating expenses through no-
     year appropriations. Appropriations are recognized as an accrual-based financing
     source at the time they are used to pay program or administrative expenses, except for
     expenses to be funded by future appropriations such as earned but unused annual
     leave. Appropriations expended for property and equipment are recognized as a
     financing source when the property is purchased.

     O. Retirement Benefits

     The Corporation’s employees participate in either the Civil Service Retirement
     System (CSRS) or the Federal Employees Retirement System (FERS). FERS was
     established by the enactment of Public Law 99-335. Pursuant to this law, FERS and
     Social Security automatically cover most employees hired after December 31, 1983.
     Employees hired prior to January 1, 1984, elected to join FERS and Social Security or
     remained in CSRS.

     For employees covered by CSRS, the Corporation contributes 8.51 percent of their
     gross pay towards retirement. For those employees covered by FERS, the
     Corporation contributes 11.50 percent of their gross pay towards retirement.
     Employees are allowed to participate in the Federal Thrift Savings Plan (TSP). For
     employees under FERS, the Corporation contributes an automatic one percent of
     basic pay to TSP and matches employee contributions up to an additional four percent
     of pay, for a maximum Corporation contribution amounting to five percent of pay.
     Employees under CSRS may participate in the TSP, but will not receive either the
     Corporation’s automatic or matching contributions.

     The Corporation made retirement contributions of $5 thousand to the CSRS Plan and
     $117 thousand and $20 thousand to the FERS and TSP Plans in fiscal year 2004.

     P. Use of Estimates

     The preparation of financial statements requires management to make estimates and
     assumptions that affect the reported amounts of assets and liabilities, the disclosure of
     contingent assets and liabilities at the date of the financial statements, and the
     reported amounts of revenue and expenses during the reporting period. Actual results
     could differ from these estimates.

     Q. Contingencies

     The Corporation can be a party to various routine administrative proceedings, legal
     actions, and claims brought by or against it, including threatened or pending litigation
     involving labor relations claims, some of which may ultimately result in settlements
     or decisions against the Corporation. In the opinion of the Corporation’s
     management and legal counsel, there are no proceedings, actions or claims



26
   outstanding or threatened, which would materially impact the financial statements of
   the Corporation.

   R. Judgment Fund

   Certain legal matters to which the Corporation can be named as a party may be
   administered and, in some instances, litigated and paid by other Federal agencies.
   Generally, amounts paid in excess of $2.5 thousand for Federal Tort Claims Act
   settlements or awards pertaining to these litigations are funded from a special
   appropriation called the Judgment Fund. Although the ultimate disposition of any
   potential Judgment Fund proceedings cannot be determined, management does not
   expect any liability or expense that might ensue would be material to the
   Corporation’s financial statements.

   S. Donated Services

   The Corporation utilized donated services from other Federal agencies during the
   period of establishment for the Corporation. The dollar amount of these donated
   services is immaterial to these statements.


Note 2 – Fund Balance with Treasury

The U.S. Treasury accounts for all US Government cash on an overall consolidated basis.
The Fund Balance with Treasury line on the Statement of Financial Position consists of
the following:

Fund Balance with Treasury as of September 30
(In Dollars)

                                                2004
Appropriated Funds

   Unobligated                         $ 986,171,577

   Obligated                           $   3,645,002

Total                                  $ 989,816,579


Note 3 – Prepayments

The prepayment reflects a prepaid lease on office space with the U.S. Department of
State.




                                                                                    27
Note 4 – Other Liabilities

Other Liabilities as of September 30
(In Dollars)

                              2004
                 Type                  Amount

Accrual

     Office of the Inspector General   $ 356,184

     Payroll                           $ 330,216

     Travel                            $ 81,001

     Miscellaneous                     $ 87,224

Total                                  $ 854,625

Note 5 – Net Position

The reported net position consists of unexpended appropriations and cumulative results
of operations (cumulative results of operations represents the differences between
revenues and expenses since the Corporation’s inception).

Net Position as of September 30
(In Dollars)

                              2004
                                       Appropriated Fund

Unexpended Appropriations              $ 988,936,768
Cumulative Results of Operations       $           0

Total Net Position                     $ 988,936,768

Note 6 – Permanent Rescission

In fiscal year 2004, $5.9 million of amounts previously appropriated under the 2004
Foreign Operations, Export Financing, and Related Programs Appropriations Act (Public
Law 108-199) were rescinded. This rescission was part of the Across-the-Board
Rescission, 2004.




28
WILLIAMS, ADLEY & COMPANY, LLP
Management Consultants
Certified Public Accountants



             INDEPENDENT AUDITORS’ REPORT ON
        INTERNAL CONTROL OVER FINANCIAL REPORTING

Inspector General
United States Agency for International Development

Board of Directors
Millennium Challenge Corporation

We have audited the Statement of Financial Position of the Millennium Challenge
Corporation (Corporation) as of September 30, 2004, and the related Statements of
Operations and Changes in Net Position, Cash Flows, and Budgetary Resources for the
nine months ended September 30, 2004, and have issued our report thereon dated January
6, 2005. We conducted our audit in accordance with auditing standards generally
accepted in the United States of America and standards applicable to financial audits
contained in Government Auditing Standards, issued by the Comptroller General of the
United States; and the Office of Management and Budget (OMB) Bulletin No. 01-02,
Audit Requirements for Federal Financial Statements.

In planning and performing the September 30, 2004 audit, we considered the
Corporation’s internal control over financial reporting by obtaining an understanding of
the Corporation’s internal control, determining if internal control had been placed in
operation, assessing control risk, and performing tests of internal controls to determine
our auditing procedures for the purpose of expressing an opinion on the financial
statements. We limited internal control testing to those controls necessary to achieve the
objectives described in Government Auditing Standards and OMB Bulletin 01-02. We
did not test all internal controls relevant to operating objectives as broadly defined by the
Federal Managers’ Financial Integrity Act of 1982, such as those controls relevant to
ensuring efficient operations. The objective of our audit was not to provide assurance on
the Corporation’s internal control over financial reporting. Consequently, we do not
provide an opinion thereon.


1250 H Street, N.W., Suite 1150   •   Washington, DC 20005   •   (202) 371-1397 •   Fax: (202) 371-9161
Our consideration of internal control over financial reporting would not necessarily
disclose all matters in the internal control over financial reporting that might be
reportable conditions. Under standards issued by the American Institute of Certified
Public Accountants, reportable conditions are matters coming to our attention relating to
significant deficiencies in the design or operation of the internal controls over financial
reporting that, in our judgment, could adversely affect the Corporation’s ability to record,
process, summarize, and report financial data consistent with the assertions by
management in the financial statements. Material weaknesses are reportable conditions
in which the design or operation of one or more of the internal control components does
not reduce to a relatively low level the risk that misstatements, in amounts that would be
material in relation to the financial statements being audited, may occur and not be
detected within a timely period by employees in the normal course of performing their
assigned functions. Because of inherent limitations in any internal control, misstatements
due to error or fraud may occur and not be detected.

We noted one matter involving internal control over financial reporting and its operation
that we consider to be a reportable condition. We do not consider this reportable
condition to be a material weakness.



Review of Oracle Federal Financials System

The Millennium Challenge Corporation (Corporation) does not have its own financial
system. The Corporation contracted with the Department of Interior, National Business
Center (NBC) to provide accounting and IT services including usage of its Oracle Federal
Financials System application. The NBC has not conducted an internal control review,
such as a Statement of Auditing Standards (SAS) 70 review, of the Oracle Federal
Financials System nor has MCC directed NBC as its third-party servicer to have a review
conducted in accordance with the federal system requirements.

The Federal Financial Management Improvement Act financial system requirements state
that a system should comply with OMB Circular A-127, Federal Financial System
Requirements. The Circular requires an agency to conduct an internal control review of
all federal financial systems in accordance with FMFIA. By not completing an internal
control review of the financial system, management does not have a comprehensive
understanding of the system’s internal controls and the risk involved in conducting
system transactions. Per the Corporation, they are the first organization to use the
system. It is a new system for NBC.


Recommendation
We recommend that MCC direct the National Business Center to conduct an internal
control review, such as a SAS 70 review, to assess the control environment of the Oracle
Federal Financials System.
We also noted other matters involving internal control and its operation that we will
report to Corporation management in our management letter.

This audit was performed pursuant to the Government Corporation Control Act, and is
intended solely for the information and use of the United States Congress, the President,
the Director of the Office of Management and Budget, the Comptroller General of the
United States, the Corporation and its Inspector General. This restriction is not intended
to limit the distribution of this report, which is a matter of public record.




January 6, 2005
Washington, DC
This page intentionally left blank
WILLIAMS, ADLEY & COMPANY, LLP
             Management Consultants
            Certified Public Accountants




         INDEPENDENT AUDITORS’ REPORT ON
       COMPLIANCE WITH LAWS AND REGULATIONS

Inspector General
United States Agency for International Development

Board of Directors
Millennium Challenge Corporation

We have audited the Statement of Financial Position of the Millennium Challenge
Corporation (Corporation) as of September 30, 2004, and the related Statements of
Operations and Changes in Net Position, Cash Flows, and Budgetary Resources for the
nine months ended September 30, 2004, and have issued our report thereon dated January
6, 2005. We conducted our audit in accordance with auditing standards generally
accepted in the United States of America and standards applicable to financial audits
contained in Government Auditing Standards, issued by the Comptroller General of the
United States; and the Office of Management and Budget (OMB) Bulletin No. 01-02,
Audit Requirements for Federal Financial Statements.

The Corporation’s management is responsible for complying with laws and regulations
applicable to the Corporation. As part of obtaining reasonable assurance that the
Corporation’s financial statements are free of material misstatement, we performed tests
of its compliance with certain provisions of laws and regulations, noncompliance with
which could have a direct and material effect on the determination of financial statement
amounts, and certain other laws and regulations specified in OMB Bulletin 01-02,
including the requirements referred to in the Federal Financial Management Improvement
Act (FFMIA) of 1996. We limited our tests of compliance to these provisions and we did
not test compliance with all laws and regulations applicable to the Corporation.




1250 H Street, N.W., Suite 1150   •   Washington, DC 20005   •   (202) 371-1397 •   Fax: (202) 371-9161
Under FFMIA, we are required to report whether the Corporation’s financial
management systems substantially comply with the Federal financial management
systems requirements, applicable Federal accounting standards, and the United States
Government Standard General Ledger at the transaction level. To meet this requirement,
we performed tests of compliance with FFMIA section 803(a) requirements.

The results of our tests disclosed one instance, see the Auditors’ Report on Internal
Control over Financial Reporting, where the agency’s financial management systems did
not substantially comply with the Federal financial management systems requirements.
This instance of non-compliance is required to be reported under Government Auditing
Standards or OMB Bulletin No. 01-02

Providing an opinion on compliance with those provisions was not, however, an objective
of our audit and, accordingly, we do not express such an opinion.

This audit was performed pursuant to the Government Corporation Control Act, and is
intended solely for the information and use of the United States Congress, the President,
the Director of the Office of Management and Budget, the Comptroller General of the
United States, the Corporation and its Inspector General. This restriction is not intended
to limit the distribution of this report, which is a matter of public record.




January 6, 2005
Washington, DC
Management       We consider the management comments to be responsive to
Comments and     the recommendations made in this report. We have
Our Evaluation   included these comments in their entirety in Appendix I.

                 MCC’s management noted the non-compliance and internal
                 control weakness identified the auditors’ reports and
                 concurred with the report finding and recommendation that
                 MCC require the National Business Center (NBC) to conduct
                 an internal control review to assess the control environment
                 of the Oracle Federal Financials System used to process
                 MCC’s transactions. MCC stated that it has discussed the
                 issue with the NBC and NBC has scheduled a SAS 70 audit
                 of the Oracle Federal Financials System which is expected to
                 be completed in fiscal year 2005.

                 Based on MCC’s comments, we consider that a management
                 decision has been reached on the report’s recommendation.
                 MCC should report to the OIG when final action has been
                 taken.




                                                                          35
This page intentionally left blank
                                                                              Appendix I



             Millennium Challenge Corporation
             Reducing Poverty Through Growth


January 11, 2005

Henry L. Barrett
Assistant Inspector General
AIG/MCC-Room 8.09.63, RRB
1300 Pennsylvania Avenue, NW
Washington, DC 20523

Re: Audit Report of the 2004 Financial Statement

Dear Mr. Barrett:

We have received the audit report submitted by Williams, Adley & Company, LLP,
including the opinion on the Millennium Challenge Corporation’s (MCC) financial
statements, internal controls, and compliance with laws and regulations. We are pleased
to note that all five financial statements (Financial Position, Operations and Changes in
Net Position, Cash Flows, Functional Expenses and Budgetary Resources) have received
unqualified opinions in our first year of operations. We thank you and your team, as well
as Williams, Adley & Company, for working closely with us during the audit process.

During the course of the audit, you identified and reported an instance of weakness in the
internal controls over financial reporting and a related instance of non-compliance with
selected provisions of applicable laws and regulations. We concur with your finding and
recommendation that the National Business Center conduct an internal control review of
the Oracle Financial System as called for by SAS 70. As noted in your report, we have
discussed this issue with NBC who has scheduled a SAS 70 audit of this system, which is
expected to be completed in fiscal year 2005.

MCC recognizes the importance of accountability, transparency and public disclosure,
and our goal is to achieve excellence in our financial management systems. We look
forward to working with you and your staff on the FY 2005 audit. Any questions may be
addressed to Nimalka Wijesooriya, Comptroller at MCC or to me.


Sincerely,

__/s/________________________________________
Paul V. Applegarth, Chief Executive Office
                                                                                       37
                            (202) 521-3600 | (202) 521-3700 [Fax]
                                       P.O. Box 12825
                                    Arlington, VA 22209
                                        www.mcc.gov
